                        U.S. Department of Agriculture

                           Office of Inspector General
                                      Washington, D.C.




              Audit Report

            Farm Service Agency
Review of the 2002 Farm Bill Commodity Loan
             and Payment Rates




                              Report No. 03601-20-KC
                                      December 2003
                   UNITED STATES DEPARTMENT OF AGRICULTURE

                                     OFFICE OF INSPECTOR GENERAL

                                          Washington, D.C. 20250




DATE:           December 22, 2003

REPLY TO
ATTN OF:        03601-20-KC

SUBJECT:        Review of the 2002 Farm Bill Commodity Loan and Payment Rates

TO:            James R. Little
               Administrator
               Farm Service Agency

ATTN:           T. Mike McCann
                Director
                Operations and Review Analysis Staff


SUMMARY:

We have completed an audit survey of the Farm Service Agency’s (FSA) established
management controls over formulation, calculation, and implementation of local county
loan rates and counter-cyclical payment rates for crop years 2002 and 2003 to
determine the need and areas for additional audit work. The overall survey objectives
were to determine (1) the methodologies used and management controls over
calculating loan county rates, establishing counter-cyclical payment rates, and
designating eligible commodities, and (2) whether such controls were adequate to
ensure that such rates were properly calculated and, in the case of counter-cyclical
rates, were applied to properly designated eligible commodities. We also reviewed and
tested a judgmental sample of payment rates and disbursements provided to producers
of agricultural crops for proper support, accuracy, and propriety. The disbursements
provided to these producers were in the form of marketing assistance loans, direct
payments, counter-cyclical payments, and loan deficiency payments (LDP).

Overall, we determined that FSA had established reasonable controls regarding the
formulation, calculation, dissemination, and implementation of local county loan rates,
counter-cyclical rates (where applicable), and other payment rates1 for crop years 2002
and 2003, and that such controls were working as intended. In addition, we determined
that selected FSA State and county offices properly applied payment rates for the
various agricultural crops for both crop years 2002 and 2003,2 as appropriate, and that
1
 Direct payment rates, LDP rates, and marketing assistance loan payment rates.
2
 Local county loan rates, counter-cyclical payment rates, direct payment rates, LDP rates, and marketing
assistance loan rates.
James R. Little                                                                                       2


they computed the various disbursements we tested in accordance with program
policies and procedures. We confirmed that the weighted average local county loan
rates established by FSA equaled the national loan rates as set forth in the Farm
Security and Rural Investment Act of 2002 (2002 Farm Bill), Public Law (P.L.) 107-171,
dated May 13, 2002. Nothing came to our attention to cause us to believe that the
systems of management controls over these activities were not effective and operating
as designed. As a result, we will not be initiating any further audit work.

BACKGROUND:

The Commodity Credit Corporation (CCC) is a wholly-owned Government corporation
created in 1933 to stabilize, support, and protect farm income and prices; to help
maintain balanced and adequate supplies of agricultural commodities, including
products, foods, feeds, and fibers; and to help in the orderly distribution of these
commodities. CCC was originally incorporated under a Delaware charter and was
reincorporated June 30, 1948, as a Federal corporation within the U.S. Department of
Agriculture (USDA) by the Commodity Credit Corporation Charter Act (15 U.S.C. 714).
Since the CCC has no operating personnel, its price support, domestic acquisitions,
production payments, and other commodity programs are carried out through the
personnel and facilities of FSA.3

The 2002 Farm Bill was signed into law on May 13, 2002, and governs Federal farm
programs for 6 years (2002 through 2007). Title I, subtitles A, B, and C of the 2002
Farm Bill provide for direct payments, counter-cyclical payments, marketing assistance
loans, and loan deficiency payments on selected agricultural commodities, including
wheat, corn, grain sorghum, barley, oats, upland cotton, rice, soybeans, and other
oilseeds and commodities. The 2002 Farm Bill replaced flexibility contract payments,
which were authorized under the Federal Agricultural Improvement and Reform Act of
1996, with direct payments.

Subtitle A of Title I provides for direct and counter-cyclical payments to be made to
eligible producers on farms enrolled for the 2002 through 2007 crop years for each
covered commodity. Both direct and counter-cyclical payments are computed using the
base acres and payment yields established for the farm. The amount of the direct
payment to be made to the producer for a crop year shall be equal to the product of the
direct payment rate multiplied by the payment acres (85 percent of the base acres) of
the covered commodity on the farm multiplied by the payment yield. Counter-cyclical
payments provide support counter to the cycle of market prices and are only to be made
to producers on farms if the effective prices for the covered commodities are less than

3
  FSA was established when USDA was reorganized in 1994, incorporating programs from several
agencies, including the then Agricultural Stabilization and Conservation Service, Federal Crop Insurance
Corporation, and Farmer’s Home Administration. Although its name has changed over the years, the
FSA’s relationship with farmers/producers goes back to the 1930’s. FSA’s missions include stabilizing
farm income, helping farmers conserve land and water resources, providing credit to new or
disadvantaged farmers and ranchers, and helping farm operations recover from the effects of disaster.
James R. Little                                                                         3


their target prices. The target prices are fixed in the legislation. The counter-cyclical
payment rate is the amount by which the target price of each commodity exceeds its
effective price. The effective price for a covered commodity is equal to the sum of (1)
the higher of the national average market price or national average loan rate and (2) the
direct payment rate.

Subtitle B of Title I continues non-recourse marketing assistance loans and LDP
provisions from previous legislation. The subtitle provides for non-recourse marketing
assistance loans for loan commodities produced on the farm (i.e., a producer has the
option of delivering to CCC the quantity of a commodity pledged as collateral for a loan
as full payment for that loan at loan maturity).          The national loan rates for
18 commodities are fixed in the legislation. For commodities other than upland cotton,
rice, and extra-long staple cotton, producers are allowed to repay their marketing
assistance loans at a rate that is the lesser of (1) the loan rate established for the
commodity, plus accrued interest and other charges, or (2) the alternate loan rate CCC
determines. For all loan eligible commodities (except upland cotton, extra-long staple
cotton, and rice), the alternate loan repayment is the CCC-determined market price.
For wheat, feed grains, and oilseeds, the CCC-determined local market price is often
referred to as the posted county price. Posted county prices are established and
available at each USDA county office. For peanuts, CCC determines national posted
prices for four types of peanuts and announces them weekly. For wool and mohair,
CCC determines weekly regional and national posted prices, respectively. For upland
cotton and rice, the alternate repayment rate is the prevailing world market price of the
commodity (adjusted to United States quality and location). For extra-long staple
cotton, the repayment of the loan is the loan rate established for the commodity, plus
accrued interest and other charges.

The Secretary may make LDP’s available to producers who, although eligible to obtain a
marketing assistance loan with respect to a loan commodity, agree to forego obtaining
the loan for the commodity in return for LDP’s.4 The LDP payment rate shall be the
amount by which the loan rate established for the loan commodity exceeds the rate at
which a marketing assistance loan for the commodity may be repaid. An LDP for a loan
commodity shall be computed by multiplying (1) the payment rate determined for the
commodity by (2) the quantity of the commodity produced by the eligible producers,
excluding any quantity for which the producers obtained a marketing assistance loan.

Section 1606, Adjustment of Loans, provides that the Secretary may adjust commodity
loan rates for differences in grade, type, quality, location, and other factors. The
adjustments are, to the maximum extent practicable, to be made in such manner that
the average loan level for the commodity will, on the basis of the anticipated incidence
of the factors, be equal to the level of support determined, as provided in Title I of the
2002 Farm Bill; i.e., the national loan rates. The Secretary may establish loan rates for
a crop for producers in individual counties in a manner that results in the lowest such

4
    LDP’s apply to all loan commodities, except extra-long staple cotton.
James R. Little                                                                         4


rate being 95 percent of the national average loan rate, except that such action shall not
result in an increase in outlays. Adjustments are not to result in an increase in the
national average loan rate for any year.

SURVEY OBJECTIVES:

The survey objectives were to determine (1) the methodologies used and management
controls over calculating local county loan rates, establishing counter-cyclical payment
rates, and designating eligible commodities, and (2) whether such controls were
adequate to ensure that such rates were properly calculated and, in the case of counter-
cyclical rates, were applied to properly designated eligible commodities.

SCOPE AND METHODOLOGY OF THE SURVEY:

The review was performed at the FSA National office in Washington, D.C., and the
Kansas City Commodity Office (KCCO) located in Kansas City, Missouri. We also
conducted work at the Missouri State FSA office and at two FSA county offices in
Missouri. Since those two FSA county offices did not issue any payments for rice and
cotton, we reviewed and tested producer information and payment for cotton and rice at
a third FSA county office in Missouri. To accomplish our objectives, we reviewed
applicable laws, regulations, and FSA procedures and instructions, and we interviewed
the USDA Office of the Chief Economist and the USDA Office of the General Counsel in
Washington, D.C. We conducted our review through interviews, reviews of FSA
records, and observations.

At the FSA National office, we reviewed FSA’s local county loan rate-making processes
and analyzed detailed spreadsheets containing price and production data and loan rate
calculation formulas for crop years 2002 and 2003. We tested data for 15 of 18 loan
commodities contained in the spreadsheets to verify the data sources, uses, accuracy,
and completeness. The 15 commodities reviewed included wheat, corn, grain sorghum,
barley, oats, upland cotton, extra-long staple cotton, rice, soybeans, other oilseeds,
graded wool, non-graded wool, mohair, peanuts, and honey. For all 15 agricultural
crops that had an established loan rate, we identified and recomputed some of the
specific formulas used by FSA to calculate the individual county loan rates to determine
their completeness and accuracy. We tracked and recomputed FSA’s posting of the 2-
year period posted county prices by individual county offices to electronic worksheets
and supporting documentation (1999 through 2000 and 2000 through 2001,
respectively). For crop years 2002 and 2003, we also tracked and recomputed FSA’s
posting of a 5-year crop production history by individual county offices to electronic
worksheets and supporting documentation (1996 through 2000 and 1997 through 2001,
respectively). We traced and recomputed other data that made up the calculations of
the local county loan rates, such as the final adjusted local county loan rate and each
county’s prorated share of the overall loan rate calculation. We further traced FSA’s
final calculations of the weighted average local county loan rates to the national loan
James R. Little                                                                         5


rates (i.e., the weighted average local county loan rates for all counties must equal the
established national loan rate by crop as set forth in the Farm Bill).

Counter-cyclical payments were only made on peanuts, rice, and upland cotton for crop
year 2002 because the effective prices for the other commodities equaled or exceeded
their target prices. We reviewed the methodology FSA followed in determining which
commodities were or were not eligible for counter-cyclical payments. We verified that
FSA used the correct target prices, direct payment rates, and national loan rates
stipulated in the legislation as well as the proper marketing year average prices in
arriving at each commodity’s eligibility for payments. We further verified that FSA
properly applied the higher national loan rate in determining the effective price used for
establishing the counter-cyclical payment rates for peanuts, rice, and upland cotton.

We also documented and assessed the management and supervisory controls over
these processes as well as the processes to monitor the loan rates to ensure that they
were properly updated and applied. In addition, we compared the effect of the
established local county loan rates on the projections and forecasts contained in the
annual President’s budget.

At the Missouri State FSA office, we reviewed and discussed pertinent information with
officials concerning the processes used to implement the counter-cyclical payment
rates, direct payment rates, LDP rates, and marketing assistance loans. We also
reviewed and discussed management controls in place to ensure that the rates
established at the FSA National office were correctly disseminated down to the FSA
State and county office levels.

At two FSA county offices in Missouri, we judgmentally selected 29 direct payment files,
19 LDP files, and 13 commodity loan files for crop years 2002 and 2003 for wheat, corn,
grain sorghum, soybeans, wool, and mohair from a universe of 5,869 producer files.
Since those two FSA county offices did not issue any counter-cyclical payments for
cotton and rice, we reviewed producer information from a cotton and rice
counter-cyclical payment file in a third county in Missouri. We reviewed these producer
payments to verify that the rates established by the FSA National office for these
selected sites were, in fact, properly used by all three FSA county offices when issuing
their direct payments, counter-cyclical payments, LDP’s, and commodity loans, as
applicable. We also recalculated the posted county prices for the three cited counties
and confirmed whether the correct LDP rates were used when issuing LDP’s to these
selected producers.

The fieldwork was performed from January 2003 through February 2003. The audit
survey was conducted in accordance with Government Auditing Standards.
James R. Little                                                                          6


SURVEY RESULTS:

We concluded that FSA had developed and implemented reasonable management
controls in establishing and administering local county loan rates and counter-cyclical
payment rates for crop years 2002 and 2003, and that such controls were working as
intended. We also concluded that the market price and production data obtained from
required sources, the methodologies and procedures used by FSA to complete the
calculation spreadsheets and the formulas contained therein, and the quality assurance
exercised over these activities and processes in establishing the various local county
loan rates and counter-cyclical payment rates were applicable and adequately
supported with appropriate documentation.

We noted that the local commodity loan rate calculations for the 15 commodities
reviewed were consistently applied for both crop years 2002 and 2003. The specific
formulation processes, formulas, and calculations required to establish local county loan
rates for these commodities were complex and numerous. Although we determined that
there were several levels of management and supervision exercised by FSA in
establishing these rates, we did note an absence of documentation supporting these
reviews; e.g., supervisory initials on spreadsheets or footings and/or tick marks, etc.,
evidencing the reviews. However, nothing came to our attention to cause us to believe
that the system of management controls over establishment of local county loan rates
and counter-cyclical payments rates were not effective and operating as intended. We
verified that for each of the crop year local county loan rates reviewed, the established
rates equaled the national loan rates, as set forth in the 2002 Farm Bill. In regard to the
selected direct payments, LDP’s, and commodity loan files reviewed at the two Missouri
county offices visited, we noted no discrepancies.

Our review did not disclose any reportable conditions and we will not be initiating
additional work regarding these areas. Therefore, we are not making any audit
recommendations and a reply to this report is not required.

The cooperation and assistance extended by your staff are appreciated.


/s/ Richard D. Long

RICHARD D. LONG
Assistant Inspector General
 for Audit
